2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

COCKLE

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-633

BYRON DAVID SMITH,
Petitioner,
ve.

JEFF TITUS, WARDEN,
MINNESOTA CORRECTIONAL FACILITY,
OAK PARK HEIGHTS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5611 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 14th day of January, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska 4) / &v Chk
i RENEE J. GOSS Q. :

Notary Public

My Comm. Exp. September 5, 2023

 

 

Affiant 40475
